NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


           MATERIAL LOSS REVIEW
                    OF
               HIGH DESERT
           FEDERAL CREDIT UNION

              Report #OIG-10-01
               March 17, 2010




             PREPARED FOR THE
    NATIONAL CREDIT UNION ADMINISTRATION
        OFFICE OF INSPECTOR GENERAL
             BY MOSS ADAMS LLP
                                              TABLE OF CONTENTS



EXECUTIVE SUMMARY ................................................................................................ 1

INTRODUCTION AND BACKGROUND ......................................................................... 3

    History of High Desert Federal Credit Union .............................................................. 3

    Economic Conditions.................................................................................................. 5

OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 6

RESULTS ....................................................................................................................... 8

    A. Cause of Material Loss ......................................................................................... 8

    B. NCUA Supervision of High Desert Federal Credit Union .................................... 10

    C. Internal Control Deficiency ................................................................................. 14

OBSERVATIONS.......................................................................................................... 16

APPENDICES ............................................................................................................... 19

    A. NCUA Management Comments ......................................................................... 19

    B. Glossary ............................................................................................................. 20




                                                                                                                                i
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

                                  EXECUTIVE SUMMARY

We have performed a Material Loss Review (MLR) on behalf of the National Credit Union
Administration (NCUA) Office of Inspector General (OIG) of High Desert Federal Credit
Union (HDFCU or the Credit Union). We reviewed HDFCU to: (1) determine the cause(s) of
the Credit Union’s failure and the resulting estimated $24.3 million loss to the National
Credit Union Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the
Credit Union. To achieve these objectives, we analyzed NCUA examination and
supervision reports and related correspondence, interviewed management and staff from
NCUA Region I & V, and reviewed NCUA guidance, as well as Region V policies and
procedures, NCUA 5300 Call Reports, and NCUA Financial Performance Reports (FPR).

We determined HDFCU failed primarily due to a high concentration of real estate
construction loans coupled with the dramatic decline in nationwide real estate values
caused by the credit crisis. The Credit Union grew its construction lending exposure to over
60 percent in 2005, 2006, and 2007, making it particularly vulnerable to the market decline.

In addition, the underwriting and monitoring of these loans did not meet NCUA guidelines,
and included a significant number of loans based on stated income, insufficient equity,
and infrequent site visits to construction properties.

Lending guidelines were not consistently followed and delinquency reporting was
inaccurate. As the credit crisis deepened, borrowers of matured loans were allowed to
make interest only payments without formally extending the loans. These loans were
not classified as past due, thus understating the level of delinquent loans reported to the
Board and the NCUA.

Management of HDFCU did not respond effectively to findings of NCUA examiners and
external auditors. We noted several instances of repeat findings in both NCUA
examination reports and external auditor reports beginning in 2003. Additionally,
management did not monitor and maintain adequate internal controls surrounding loan
underwriting and monitoring. In addition, loan personnel lacked proper training and
experience for the volume of construction lending they were performing.

The Board of Directors placed heavy reliance on management to identify and correct
operational issues and did not adequately monitor their progress. Senior management
showed a significant lack of involvement and knowledge of the Credit Union and its
risks.

We determined NCUA examiners did not adequately evaluate the risk in the HDFCU’s
real estate construction portfolio. As noted, real estate construction loans accounted for
over 60 percent of the Credit Union's loan portfolio for three consecutive years. NCUA
examiners noted the high concentration and the lack of proper underwriting and
monitoring controls, including repeat violations of Part 723.3 of the NCUA Rules and
Regulations.




                                                                                            1
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

They failed, however, to elevate these repeated issues for stronger supervisory actions.
Consequently, examiners did not expand examination procedures when they should
have done so, which could have mitigated the loss to the NCUSIF.

We also determined NCUA examiners did not ensure that Credit Union management
took corrective action on repetitive Document of Resolution (DOR) issues by elevating
those issues to their superiors for stronger supervisory actions. Further, we noted a
"Supervisory Examiner Appraisal" review was prepared requesting a follow-up visitation
at HDFCU as a result of a DOR issued during 2003. The follow-up visitation did not
occur within the timeframe outlined in the review. The NCUA did not ensure the
examiner took the recommended corrective actions in a timely manner.

Additionally, we found little evidence that NCUA officials and examiners monitored
waivers granted to HDFCU in August 2003 for compliance, and the Credit Union did not
establish a process to monitor compliance with the waiver either.

Finally, the examiners in charge remained the same for more than eight years, with in
charge responsibilities rotating between the same two examiners. These examiners
became overly familiar with the Credit Union, management, staff, processes, and
culture, which created a lack of objectivity in the evaluation of the risks impacting the
Credit Union.

This report does not make recommendations but provides observations and
suggestions. As major causes, trends, and common characteristics of financial
institution failures are identified in OIG MLR reviews, the OIG will communicate those to
management for its consideration. As resources allow, the OIG may also conduct more
in-depth reviews of specific aspects of the NCUA’s supervision program and make
recommendations, as warranted.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




                                                                                            2
Material Loss Review of High Desert Federal Credit Union
OIG-10-01



                                 INTRODUCTION AND BACKGROUND

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
authorized Moss Adams LLP to conduct a Material Loss Review (MLR) for the High
Desert Federal Credit Union (HDFCU or the Credit Union), as required by Section 216
of the Federal Credit Union Act (FCU Act), 12 U.S.C. 1790d(j). HDFCU was a federally
chartered Credit Union operating in the “High Desert” area of San Bernardino County in
California, ultimately serving about 11,000 members. HDFCU was located in NCUA’s
Region V.

History of High Desert Federal Credit Union
Chartered in 1951, High Desert Federal Credit Union initially served the personnel and
employees of George Air Force Base in Victorville, California. The Credit Union
established itself as a leader in residential real estate construction and development
lending, primarily in the Victorville, Hesperia, and Apple Valley areas of San Bernardino
County. In 1982, HDFCU converted to a community charter and then expanded in
December 2004 to serve all of San Bernardino County.

Financial Condition of HDFCU (as of December 31)

Source: Audited Financial Statements      2003     2004    2005   2006     2007
($ = millions)

Total Assets                              $113     $133    $172   $183     $166
Total Member Shares                       $100     $117    $144   $157     $150
Total Loans                               $73      $94     $136   $154     $136
Net loan growth rate                      18%      29%     45%    13%      -12%


Net income (loss)                         $3       $3      $3     $2       ($5)




                                                                                        3
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

Beginning in 2003, HDFCU began to expand the level of real estate construction
lending both as member originated and as member business loans. The Credit Union’s
assets grew from $60 million in 2000 to more than $180 million in September 2006.
The primary catalyst for this growth was the increase in real estate construction loans
and member business loans for builders of residential real estate. Concentration in
construction lending comprised over 60 percent of the loan portfolio in 2005, 2006, and
2007.


                                          HDFCU Loan Concentrations

                         175
           $$ Millions




                         150

                         125

                         100

                         75

                         50

                         25

                         -
                                   2003         2004         2005          2006          2007

                                  Construction loans - MBL and REC   Vehicle Loans   Other Loans

                             Source: Audited Financial Statements as of December 31




                                                                                                   4
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

Economic Conditions
The long-term trend for rising home prices accelerated rapidly from 2000-2006
throughout the United States and particularly in California, where home prices doubled
during that time period. Rising real estate prices were fueled by rapid population
growth, low interest rates, and easy credit conditions.


                                     Average Home Prices
   $400,000

   $350,000

   $300,000

   $250,000

   $200,000

   $150,000

   $100,000

    $50,000

          $0
                  2001         2002         2003          2004         2005   2006   2007   2008
               Source: US Census Bureau and Calif ornia Assn. of Realt ors


                                                 US       San Bernardino County



The graph above shows the marked increase in home values in the United States, and
even more significantly for San Bernardino County. Housing prices peaked in 2006,
followed by a swift and dramatic decline both in real estate values and credit availability.

On October 16, 2008, HDFCU was placed into conservatorship. Subsequently, the
purchase and assumption of certain HDFCU assets, liabilities, and shares was
completed by Alaska USA Federal Credit Union. The loss to the NCUSIF is estimated
at $24.3 million.




                                                                                                   5
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

                     OBJECTIVES, SCOPE, AND METHODOLOGY

We performed a material loss review as required by section 216 of the Federal Credit
Union Act, 12 U.S.C. 1790d(j) for High Desert Federal Credit Union. Section 216(j) of
the FCU Act provides that the Inspector General must conduct a review when the
NCUSIF has incurred a material loss. For purposes of determining whether the fund
has incurred a loss that is “material,” a loss is material if it exceeds the sum of:
          $10,000,000; and
          An amount equal to 10 percent of the total assets of the credit union at the
           time at which the Board initiated assistance under Section 208 or was
           appointed liquidating agent.
The objectives of the MLR were to:
          Determine the causes of the Credit Union’s failure and any material loss to
           the NCUSIF;
          Assess NCUA supervision of the institution, including implementation of the
           Prompt Corrective Action requirements of Section 208 of the FCU Act; and
          Make appropriate observations to prevent future losses.

The scope of this review included an analysis of NCUA examinations and the Credit
Union’s transactions and activities from 2003-2008.

To achieve the objectives, our methodology included the following procedures:
          Completed the Risk Assessment based on review of NCUA examination files.
          Prepared a chronology of examination scope and procedures, comments, and
           corrective actions.
          Prepared data tables and analysis related to lending activities.
          Reviewed board minutes.
          Summarized external audit findings and follow-up procedures.
          Conducted interviews with NCUA officials involved at various levels in the
           examination process.
          Evaluated risk management and internal controls, including effectiveness of
           corporate governance, management oversight, and decision making.
          Performed loan quality procedures, particularly related to concentrations,
           underwriting, and documentation.
          Reviewed policies and procedures included in examination files related to
           investment quality, liquidity management, and earnings.
          Reviewed NCUA and Region V rules, regulations, and guidelines.
          Assessed NCUA supervision as it relates to HDFCU.



                                                                                          6
Material Loss Review of High Desert Federal Credit Union
OIG-10-01



We conducted this audit from October 2009 thru March 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                                                                           7
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

                                            RESULTS IN DETAIL

A. Cause of Material Loss
As a result of the aforementioned procedures and analysis, we have determined the
main causes of the failure of High Desert Federal Credit Union and assessed NCUA’s
supervision as it relates to HDFCU, as follows:

Loan Concentrations: Concentration of construction loans was excessive
High Desert Federal Credit Union enjoyed a period of significant growth in its loan
portfolio from 2003 through 2006 before the market began its decline. Population
growth in the High Desert area drove the increase in construction lending, which grew to
be over 60 percent of outstanding loans in 2005, 2006, and 2007.

                                          Loan Volume History
                                       (Includes member business loans)
                            12/31/2003 12/31/2004              12/31/2005 12/31/2006 12/31/2007
Number of loans
originated during
the year                    453              505               450               344              185
Amount of loans
originated during
the year                    $85M             $118.1M           $138.8M           $116.4M          $66.2M

Management did not put adequate monitoring and reporting tools in place to identify this
concentration risk. As a result, neither management nor the Board monitored the
concentration exposure nor did they recognize the changing real estate market in a
timely manner so that concentration risk could be managed.

Finally, we did not find any documentation in the NCUA Examiners materials detailing
how the Credit Union’s concentration risk was evaluated or impacted the scope of the
Credit Union’s examinations.

Governance: Management competence and Board oversight were inadequate
Included in each monthly Board of Directors packet was extensive information
surrounding the operations and financial results of the Credit Union, including
information about the Credit Union’s loan portfolio. Each month, the Credit Union’s
Director of Lending provided detailed reporting on the following information related to
HDFCU’s real estate construction portfolio including the following:
            A report on delinquent real estate loans.
            A Construction Loan Report.1

1
 The Construction Loan Report provided management with the number of construction loans between 12-18 months
past the original maturity date, as well as the number of construction loans greater than 18 months past the original
maturity date.



                                                                                                                    8
Material Loss Review of High Desert Federal Credit Union
OIG-10-01



In analyzing these two reports from March 2004 through December 2007, we
discovered two items which should have served as early warning signs to management
and the Board of Directors. First, the number of construction loans reported as
delinquent during this time period remained virtually unchanged at two or three until
September 2007, when the number of delinquent construction loans increased to
thirteen. Second, the number of loans reported as more than 12 months past their
original maturity date grew from nine in March 2004 to 158 in September 2007. In
September 2007, nearly 45 percent of the total construction loan portfolio was greater
than 12 months past the original maturity date. This was due to management simply
extending a loan once it matured. In many cases, management extended loans
numerous times rather than start foreclosure procedures. We believe had management
recognized this trend and taken immediate corrective action, the loss to the Credit
Union could have been minimized.

Additionally, delinquent loans were not properly identified or reported. As noted above,
loan defaults by borrowers were not considered past due if interest-only payments were
paid. In addition, the Credit Union’s quarterly Call Report data (NCUA form 5300) for
“Total Delinquent” loans did not agree with the total amount of delinquent loans reported
to HDFCU’s Board of Directors in their monthly board packets. Specifically, from March
31, 2005, through December 31, 2007, total delinquent loans reported in the Credit
Union’s Call Reports were (in nearly every case) less than the total amount reported to
the Board of Directors. We reviewed virtually every monthly Board packet as well as
each quarterly Call Report for the Credit Union to try and determine why these
variances existed and which amounts were correct. However, we were unable to
determine the reason for the differences. We inquired of NCUA officials specifically if
they noted these differences and they indicated they had not.

Despite not being able to determine which report was correct, we determined that
HDFCU either misreported to the NCUA or to its Board of Directors $1,215,715 in
delinquent loans during this timeframe.

The Board placed heavy reliance on management to identify and correct operational
issues. Based on the information noted above, it was obvious senior management
showed a significant lack of involvement and knowledge of the growing credit risk the
Credit Union was exposed to. Despite repeated DOR comments from the NCUA,
neither management nor the Board ensured the Credit Union implemented appropriate
risk management processes to correct the issues facing it related to the construction
loan portfolio.

In addition, we determined that although NCUA examiners reviewed the Credit Union’s
Board packets during their exams, they did not identify the information noted above.
Finally, we found significant variations in how examiners prepared their summary
workpapers to document the review of Board minutes and no indication that examiners
noted the issues discussed above. As a result, the NCUA missed an opportunity to




                                                                                        9
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

early identify the deterioration in the Credit Union’s loan portfolio and therefore mitigate
the loss to the NCUSIF caused by the failure of HDFCU.

Underwriting: Management did not correct identified underwriting weaknesses
Weak underwriting processes were identified and repeatedly brought to the attention of
HDFCU management by both NCUA examiners and external auditors beginning in
2003. Deficient processes included the excessive use of the borrower’s stated income,
insufficient equity standards that allowed for borrower equity to be based on market
values rather than money invested by the borrower, lack of verification of owner
occupancy, and infrequent site visits to monitor the progress of construction projects.

Lending: Lending guidelines were not followed
As real estate values began their steep and rapid decline, lending guidelines and
policies were not followed. Unreasonable modifications and extensions were
negotiated, including loan to values in excess of policy and regulatory limits, and
increasingly high concentrations of speculative lending that were not identified by Credit
Union management or reported to the NCUA. Also, collection efforts on a matured loan
were not consistently implemented and borrowers, instead, were allowed to continue
making interest only payments without HDFCU extending the loans.

B. NCUA Supervision of High Desert Federal Credit Union
The CAMEL Rating System (1 is highest, 5 is lowest) provides a consistent assessment
of a credit union’s financial condition and operations in the areas of Capital Adequacy,
Asset Quality, Management, Earnings, and Liquidity/Asset Liability Management (ALM).
Until the March 31, 2008, examination, HDFCU had received composite CAMEL
Ratings of 1 or 2, indicating a long track record of strong performance.

    HDFCU Examination Dates         Mar-03         Sep-04          Dec-04          Sep-06           Mar-08
    Completion date                 7/28/2003      11/18/2004      3/17/2005       11/17/2006       5/31/2008
    Type                            10             22              10              10               10

    CAMEL composite                 2              N/A             1               2                4
    Capital/Net Worth:              1              N/A             1               1                3
    Asset Quality:                  2              N/A             2               2                4
    Management:                     2              N/A             1               2                4
    Earnings:                       1              N/A             1               1                4
    Liquidity/ALM:                  1              N/A             1               2                3

NCUA’s December 2004 examination resulted in a composite CAMEL 1 rating and
noted that management had addressed all prior exam concerns. Increased losses in
the Credit Union Direct Lending (CUDL) program2 were noted, as were exceptions to
Member Business Loan (MBL) underwriting policies. There were no Document of
Resolution (DOR) items.

2
  CUDL is an indirect auto loan program developed by credit unions and auto dealers to assist consumers with auto
financing.



                                                                                                                10
Material Loss Review of High Desert Federal Credit Union
OIG-10-01



Based on findings noted in the September 2004 DOR related to MBL loan underwriting
and repeated in the September 2006 examination, the lack of any DOR items in the
December 2004 examination appears to be an error by the examination team.

The September 2006 examination resulted in a composite CAMEL 2 rating. Examiners
noted that the CUDL program grew 75 percent and that management had strengthened
its underwriting criteria after some significant losses. Construction loans had grown to
$98M and were reported to be operating “in a sound manner,” though some cooling off
in the housing market was noted. MBL policy violations were noted, particularly related
to equity requirements and lack of proper recordkeeping to monitor compliance with the
waiver issued in August 2003. The DOR reported five areas of concern along with
corrective actions, including MBL policy and waiver compliance monitoring, and
ensuring income verification for MBL borrowers.

Subsequent to the September 2006 examination, HDFCU’s residential real estate
construction program experienced rapid deterioration caused primarily by poor initial
underwriting and local real estate market stresses. The total delinquent loan ratio rose
from 6 percent at December 31, 2007, to over 26 percent as of April 30, 2009. This
increase was driven almost entirely by the REC loan portfolio in which there were
increasing delinquencies due to construction delays, borrower delays in obtaining
permanent financing, and, most pronounced, borrowers defaulting on their obligation to
obtain permanent financing.

The March 31, 2008, examination reported serious issues including construction loans
outside the field of membership, weak underwriting processes, inaccurate reporting of
delinquencies, and lack of owner occupancy verification. As a result, HDFCU was
downgraded to a composite CAMEL 4. The DOR called for a plan to mitigate the
financial deterioration, cease new construction loans, provide more complete
delinquency reporting, and increase monitoring of loan modifications and extensions.

During a June 30, 2008, follow-up examination, examiners noted severe underwriting
and loan quality concerns, and HDFCU was subsequently downgraded to a CAMEL 5
following the NCUA Board’s October 16, 2008, conservatorship action.

The NCUA examiner team for the Credit Union remained the same for over eight years
with in-charge responsibilities rotating between the same two examiners. Over their
long involvement, these examiners became very familiar and comfortable with Credit
Union staff, policies, and procedures.

Documents of Resolution
The Board of Directors of the Credit Union first approved their MBL policy in November
2002. During the March 2003 examination, NCUA examiners noted the following
comments, which resulted in a DOR. The items listed in the DOR are below:
          Report impermissible member business construction loans to CUMIS.



                                                                                      11
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

            Ensure that underwriting for multiple construction loan borrowers includes:
                  o Comment sheets describing the borrowers’ expertise and the Credit
                    Union's previous experience with the borrower.
                  o Documentation and analysis of the member’s ability to repay.
                  o For corporate borrowers, legal documents required to establish
                    authorization to obligate the corporation and encumber corporate
                    assets.
                  o Provide training of in-house personnel or use an outside third party
                    with competency in this type of lending to perform financial analysis.
            Continue self-imposed moratorium on member business lending until either
             the requested waiver is approved or until loan volume falls below 15 percent
             net worth.
In addition to these comments in the DOR, the exam also listed the following comments
related to the MBL policy and recommendations for improvement in the examination
overview:
            The MBL policy does not address the MBL market area.
            The policy permits 80 percent loan to value collateral protection while Part
             723.3 of NCUA Rules and Regulations requires 35 percent member equity.
            The policy permits an aggregate total of 10 percent of assets to be invested in
             member business loans while the regulation limits construction/development
             business loans to 15 percent of net worth.

As a result of the March 2003 exam findings, the Credit Union requested a waiver from
the Regional Director (RD) of some of the requirements outlined in NCUA Rules and
Regulations Part 723.

On August 12, 2003, the RD granted the Credit Union two MBL waivers from the
restrictions contained in NCUA Rules and Regulations Part 723. The waivers allowed
management to grant MBLs with the following minimum equity interest limits:
            The 20 percent minimum equity interest limitation applied to one-at-a-time
             and multiple-at-a-time3 construction loan programs. For multiple-at-a-time
             construction loans, approval was based on the Credit Union hiring a qualified
             MBL underwriter experienced in granting these loans or outsourcing the due
             diligence review to a qualified underwriter experienced in these types of
             loans.
            The three percent minimum equity interest limit applied to the one-at-a-time
             construction loan program approvals and were based on two conditions:

3
 One-at-a-time construction loans refer to a member building one speculative or custom home, selling it, and paying
off the related construction loan before additional construction loans are granted to the member. Multiple-at-a-time
construction loans refer to more than one construction loan outstanding to a member at a given time.




                                                                                                                  12
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

                  o The maximum aggregate in one-at-a-time construction loans with
                    equity interests less than 20 percent, but three percent or more does
                    not exceed 85 percent of the Credit Union’s net worth and;
                  o A written take out commitment letter exists from another lender to fund
                    the permanent financing upon completion of the construction.

As a result of the waiver approval noted above, the Credit Union increased its
origination of MBL construction real estate loans until December 31, 2007. At that time,
total MBL construction loans outstanding were $18.53 million. Additionally,
            The Credit Union continued to receive DOR comments related to this portfolio
             in each examination following the March 2003 exam; and
            There was no evidence that HDFCU management ever developed a system
             for tracking the total amount of outstanding MBL loans that were granted
             under the waiver issued in August 2003. The September 2004 contact by the
             NCUA cited MBL underwriting weaknesses, primarily related to the
             documentation of income verification and the calculation of loan to values on
             loan requests involving real estate construction.

The September 2004 onsite examination resulted in the issuance of another DOR
related to the MBL portfolio, involving updating the MBL policy and proper training for
real estate loan officer on loan documentation and calculation of equity parameters.
Examiners noted that the sources of loan losses needed to be monitored and
underwriting criteria improved related to the CUDL program.

The December 2004 examination indicated all exceptions noted in the September 2004
contact related to the MBL program were cleared. However, in the September 2006
exam, the Credit Union received another DOR related to MBL issues including the
following:

            Revise the MBL policy to comply with Part 723 of the RD's MBL waiver and
             relevant NCUA General Counsel opinions;4
            Report impermissible loans to the bonding company;
            Implement a tracking report to ensure that MBLs granted with more than three
             percent and less than 20 percent equity do not exceed the 85 percent of net
             worth limitation included in the August 12, 2003, MBL waiver; 5 and
            Ensure income is verified for all MBL borrowers.6

In July 2003, the Supervisory Examiner (SE) completed a “Supervisory Examiner
Appraisal” form for the March 2003 examination. In the appraisal, the SE commented

4
  This was the third time in four exams or contacts the Credit Union was cited for this issue. The only time it was not
noted was in the December 2004 exam, which appears to have been in error based on the findings in the September
2006 exam.
5
  We found no evidence the Credit Union ever implemented a tracking report.
6
  This was a repeat comment from prior exams.



                                                                                                                    13
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

that in light of the issues noted related to the MBL program, the examiner in charge
(EIC) should make a follow-up visit to the Credit Union by the end of the year. We
determined this visit was not performed until November 2004 (effective September 30,
2004), which was well outside of the time frame originally requested in the appraisal.

C. Internal Control Deficiency
Responsiveness: Examination findings were repeated and unresolved
Beginning with the March 2003 report of examination, examiners included comments in
the DOR section related to:
      MBL underwriting;
      Impermissible MBLs;
      Training of Credit Union loan officers;
      Updating the Credit Union’s loan policy to bring it into compliance with Part 723
       of NCUA Rules and Regulations; and
      Monitoring the Region V waiver received in August 2003.
In each subsequent examination up through and including the March 2008 exam,
examiners included comments in the DOR section related to MBLs, with the exception
of the December 2004 examination, which as previously explained, did not include any
DOR items.
In the September 2004 and the September 2006 examinations, examiners were very
critical and issued DORs related to the Credit Union’s MBL and construction loan
portfolio.

We also noted an instance where the SE, as part of their “Risk Focused Exam -
Appraisal Form,” dated July 2003, requested the EIC follow up by year end on the
issues included in the DOR from the March 2003 exam. This follow-up request was not
completed until November 2004, nearly a year after it was due.

NCUA’s Examiner’s Guide (Guide) sets forth the processes and procedures to be used
by examiners to assure credit union compliance with NCUA policies and includes a
detailed explanation of the Risk Focused Examination program, as well as the scope,
planning, analysis, and reporting requirements to be used in each exam. In addition,
the Guide indicates the DOR, if applicable, is a required workpaper and states, “When
the examiner must repeat a Document of Resolution from a previous examination
because the officials failed to sufficiently correct the area of concern, the examiner
should emphasize the repeated agreement. The examiner should place an asterisk
beside the item and footnote the lack of corrective action to draw management’s
attention to the ongoing problem.” Examiners are encouraged in both the Guide and in
the Region V Supervision Policy Manual (Manual) to reach agreement with
management; however, if that is not possible, they should consider, but are not
required, to contact the SE or RD.




                                                                                       14
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

During our review of HDFCU, we determined an internal control weakness exists within
the DOR process. Specifically, neither the Guide nor the Manual specifies a process to
effectively correct repeat DOR issues from prior examinations. Although the Guide
does provide a clear process to assure repeat issues are visible to credit union
management, the Guide is not clear regarding when a DOR is applicable or what follow-
up procedures are necessary, particularly if the composite CAMEL rating is above a 3.
In addition, the Guide is not clear regarding what the next step must be if there is no
resolution. As a result, issues in the DOR process are not consistently resolved.




                                                                                    15
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

                                      OBSERVATIONS

Concentration guidelines: Develop concentration risk guidelines and establish a
process to identify, analyze and monitor exposure
Loan concentrations are not clearly identified and analyzed. In addition, the risk
associated with the concentrations does not appear to have been considered in
establishing the CAMEL and Risk Focused ratings during the examinations.
    NCUA should consider developing a more specific process to identify, analyze,
     and monitor loan concentration during exams as well as between exams. The
     NCUA should give strong consideration to a more detailed breakout of loan types
     on the 5300 Call Report to facilitate this analysis. Additionally, NCUA should
     consider developing concentration guidelines to assist both examiners and the
     credit unions in identifying and monitoring concentration risk.

Responsiveness: Examination findings were repeated and unresolved
    NCUA should consider amending the Examiner’s Guide to provide a more
     specific DOR process that will give examiners clear guidance on when a DOR is
     required, detailed follow-up procedures and documentation requirements on
     repeat findings, and a defined process to elevate issues within the NCUA that
     have not been appropriately resolved. At a minimum, NCUA should consider
     requiring examiners to document their follow-up on significant findings from prior
     examinations until the finding is properly remediated. Documentation should be
     retained by the examiners supporting the remediation of previous findings until
     the next examination.

Examiner Familiarity: Examiner in-charge rotation was ineffective
The examiner team remained the same for more than eight years, with EIC
responsibilities rotating between the same two examiners. These examiners became
overly familiar with the HDFCU management, staff, processes, and culture, which
created a lack of objectivity in the evaluation of the risks impacting the Credit Union.
    NCUA should consider implementing a rotation program that requires a new lead
     examiner in reasonable and regular intervals. This should not be merely a role
     change among returning examiners and should be standard across all NCUA
     regions.

Waivers: Waiver not monitored
NCUA granted a waiver to HDFCU without the ability to monitor and track the credit
union’s compliance. Specifically, in August 2003, Region V granted a waiver to HDFCU
related to “one-at-a-time” and “multiple-at-a-time” construction real estate loans and Part
723.3 of the NCUA Rules and Regulations. The parameters of this waiver were very
detailed and required tracking two specific elements of HDFCU’s MBL construction
loans. The first element required disclosure of the number of construction loans the
member currently had on file with the Credit Union. The second element required
disclosure of the amount of equity, or down payment, the member included for each


                                                                                           16
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

loan. Although NCUA officials indicated the region had an MBL monitoring process in
place at the time the RD granted HDFCU its waiver, we determined the region’s process
lacked the ability to track a waiver of such detail as HDFCU’s. Specifically, the region’s
process requires the verification and cross-reference of the aggregate MBL limits to all
outstanding waivers on file, which essentially uncovers those credit unions without an
approved waiver. As a result, we determined the NCUA does not capture, through
quarterly Call Reports or other financial reporting systems, the type of detailed
information that would allow examiners to adequately monitor and track compliance with
a waiver as specific as the one granted to HDFCU.

In addition, despite the NCUA’s inability to track specific detailed wavier information,
examiners can, through the DOR process, require credit union management to track the
specific requirements of a waiver and report this information to the NCUA. We
determined, however, examiners did not require HDFCU management to implement
such a tracking system until three years after the waiver was granted. 7 As a result,
HDFCU never developed its own tracking system to capture the information required by
the August 2003 waiver.

NCUA Region V officials explained they enhanced their MBL waiver monitoring process
in 2009 by requiring examiners to confirm whether credit unions were utilizing waivers in
a safe and sound manner and whether any waivers should be terminated.

We believe the following suggestions will also enhance NCUA’s waiver process:
     NCUA should consider the ability of the region or credit union to track waivers. If
      a waiver requires the generation of detailed information from the recipient credit
      union that is not already captured in the Call Report or other financial reporting
      system, the NCUA should take into account the ability of credit union and the
      region's staff to adequately monitor the waiver.
     Implementation of the monitoring process should be in place before granting a
      waiver.
     Failure by a credit union to properly monitor and track a waiver, or
      noncompliance with a waiver during an examination, should result in suspension
      of activity allowed under the waiver until the credit union can reestablish an
      appropriate tracking model or become compliant with the waiver.
     NCUA should consider a renewal period and/or a sunset provision for waivers
      granted related to significant risk areas of a credit union. At a minimum, this
      would include waivers related to loan concentrations, liquidity management,
      capital, or certain regulatory matters.




7
  The September 2006 examination report included a DOR comment requiring HDFCU management to implement a
tracking system for the August 2003 waiver.



                                                                                                      17
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

Documentation: Examiner documentation was inconsistent and incomplete
Examination files lacked consistent documentation of sampling methods, samples sizes,
and overall risk assessment procedures performed during the examination. In addition,
the questionnaire and checklists supporting the examiner’s quarterly review of 5300 Call
Reports did not sufficiently document issues identified and analysis performed.
    NCUA should consider more detailed documentation standards be adopted to
     better explain the process and testing procedures used in the exams. Further,
     the specific procedures and analysis performed by the examiner during their
     quarterly review of the 5300 Call Reports should be well documented and
     retained.




                                                                                     18
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

Appendix A: NCUA Management Comments




                                                           19
Material Loss Review of High Desert Federal Credit Union
OIG-10-01

Appendix B: Glossary

             AMAC      Asset Management & Assistance Center (Austin TX)
             ARDO      Associate Regional Director Operations
             ARDP      Associate Regional Director Programs
             CUDL      Credit Union Direct Lending Program
             CUMIS     Credit Union Member Insurance Society
             DDs       Division Director
             DMS       Division of Management Services
             DOI       Division of Insurance
             DOR       Document of Resolution
             DOS       Division of Supervision
             DSA       Director of Special Actions
             E&I       Examination & Insurance
             EIC       Examiner In Charge
             EX        Examiner
             FOM       Field of Membership
             Guide     NCUA Examiner's Guide
             Manual    Region V Supervision Policy Manual
             MBL       Member Business Loan
             OED       Office of Executive Director
             ORD       Office of Regional Director
             PACA      Office of Public and Congressional Affairs
             PCO       Problem Case Officer
             PWL       Preliminary Warning Letter
             RD        Regional Director
             RO        Regional Office
             SE        Supervisory Examiner
             SME       Subject Matter Expert
             TDR       Troubled Debt Restructure




                                                                          20
